App. 95a
CERTIFICATE OF SERVICE
I hereby certify that on this 29th day of July 2019 that
the foregoing APPELLANT'S PETITION FOR
REHEARING associated with No. 18-1458 was
sent by U.S. mail to the following addresses':

Dennis C. Barghaan, JR.
Assistant United States Attorney
Office of the United States Attorney
Justin W. Williams U.S. Attorney's Building
2100 Jamieson Avenue
Alexandria, Virginia 22314
Tel: 703-299-3891
Fax: 703-299-3983
Email: dennis.barghaan@usdoj.gov
Katrina M Lederer
Office of the General Counsel
Merit Systems Protection Board
1615 M Street, NW Washington, DC 20036
/s/Thomas Sweeney
Thomas F. Sweeney
7083B Jasper Dr
Middletown, MD
21769
804-457-8868
Thomas@reddn.com

vCOCKLE

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

'C^^SLegal Briefs
Est. 1923

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com
No.
THOMAS F. SWEENEY,
Petitioner,
v.
MERIT SYSTEMS PROTECTION BOARD
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 11th day of November, 2019, send
out from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:
SEE ATTACHED
To be filed for:
Thomas F. Sweeney
Petitioner Pro Se
7083B Jasper Dr
Middletown, MD21769
Phone: (804) 457-8868
Thomas@reddn.com

\

Subscribed and sworn to before me this 11th day of November, 2019.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary
State of Nebraska
My Commission Expires Nov 24, 2020

>
1
1
1

Notary Public

Affiant

38945

t/

Noel J. Francisco
Solicitor General of the United States
U.S. Department of Justice
Room 5616
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
(202)514-2217
supremectbriefs@usdoj .gov

